OFFICE OF THE
SECRETARY
Internal Controls
for Purchase Card
Transactions Need
to Be Strengthened




FINAL REPORT NO. OIG-13-025-A
MAY 2, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

FOR PUBLIC RELEASE
                                                              UNITED STATES DEPARTMENT OF COMMERCE
                                                              Office of Inspector General
                                                              Washington. D.C. 20230




May 2, 2013

MEMORANDUM FOR:               Ellen Herbst
                              Senior Adviser to the Deputy Secretary


                                 QjJt},~
FROM:                         Andrew Katsaros
                              Assistant Inspector General for Audit

SUBJECT:                      Internal Controls for Purchase Card Transactions Need to Be
                              Strengthened
                              Final Report No. OIG-13-025-A


Attached is our final report on the Department of Commerce's controls over purchase card
transactions.

We found that the Department needs to strengthen transaction-level controls over the
creation and maintenance of transaction documentation, ensure that cardholders and approving
officials obtain annual refresher training, and ensure that state and local sales tax is not paid.
We also discovered improper or questionable transactions, as well as procedural issues.

Most of the control deficiencies that we found can be corrected through improved
documentation by cardholders and improved monitoring by approving officials. Moreover,
enhancing cardholders' and approving officials' knowledge and understanding of applicable laws
and regulations through improved, recurring training should further strengthen internal
controls.

Our audit was conducted on a sample of transactions recorded October I, 20 I0, through
September 30, 20 I I. The Department has represented and informed us in discussions that
since this time, it has improved its internal controls related to training and purchase card use.
However, because these corrective actions were implemented after our audit fieldwork, our
report does not address these changes. The Summary of Agency Response and OIG Comments
section of the report describes the corrective actions claimed by the Department.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 days of the date of this memorandum. We appreciate the assistance and
courtesies extended to us by the Department and its bureaus. If you have any questions about
this report, please contact me at (202) 482-7859 or David Sheppard, Regional Inspector
General for Audit, at (206) 220-7970.

Attachment
                                              Report In Brief                                        M AY 2 , 2 0 13




Background                               OFFICE OF THE SECRETARY
In fiscal year (FY) 2011, Department
of Commerce staff used 4,515 pur-
                                         Internal Controls for Purchase Card Transactions Need to Be
chase cards for 265,423 transactions,    Strengthened
spending $118,628,549.
                                         OIG-13-025-A
In September 2011, we began this
audit on transactions initiated during   WHAT WE FOUND
FY 2011. We selected approximately
850 transactions for testing through     Transaction documentation was incomplete. Missing documentation included
a stratified random sample, ensuring     evidence of the availability of funds and of legitimate government need, proper
that transactions from all bureaus       vendor invoices or payment receipts, and evidence of receipt and acceptance.
were included and that results could
be projected to the entire Depart-       Procedural issues exist. Cardholders inappropriately paid state and local sales tax,
ment. We also projected bureau-          did not pay invoices within 30 days, and faxed purchase card information.
specific results for the Census Bu-
reau, National Oceanic and Atmos-        Transactions were improper or questionable. We identified transactions that were
pheric Administration, and National      split, transactions that exceeded cardholders’ single-purchase limit, and
Institute of Standards and Technolo-     purchases made by employees other than the cardholder.
gy, because those bureaus represent-
ed the largest users of purchase         Cardholders and approving officials did not obtain annual refresher training. A
cards.                                   significant number of cardholders did not obtain annual refresher training.

Why We Did This Review                   WHAT WE RECOMMEND
We performed this audit to deter-        We make the following recommendations to the Chief Financial Officer and
mine whether the Department had          Assistant Secretary for Administration:
adequate transaction-level internal
controls over the use of purchase        1.   Direct cardholders to document purchase requests and approvals, budget
cards.                                        approvals, and bona fide government needs for purchase card transactions.
We initiated the audit as we believe     2.   Strengthen the monthly purchase card reconciliation process.
purchase cards are an inherently
risky method for purchasing, due to      3.   Ensure that purchases are equitably distributed among qualified vendors and
the highly decentralized nature of            that agencies determine the most efficient and effective method of obtaining
the transactions, the number of               services (i.e., insourcing versus outsourcing, purchase cards versus other
cardholders, and the amount of                procurement tool).
activity. We also observed an in-
crease in congressional interest in      4.   Develop policies and procedures to ensure that purchase card files are
the use of purchase card by federal           retained when cardholders or approving officials end employment with the
agencies, as seen by the passing of           Department or otherwise discontinue their functions as cardholders or
the Government Charge Card                    approving officials.
Abuse Prevention Act of 2012 on
October 5, 2012. Additionally,           5.   Improve training — as well as its tracking and monitoring — for cardholders
three other recent reviews on pur-            and approving officials on regulations over the use of purchase cards.
chase card activity within the De-
partment identified issues such as       6.   Ensure the Department’s Electronic Transmission of Personally Identifiable
internal control deficiencies, ques-          Information policy is consistent with the Commerce Acquisition Manual
tionable transactions, split transac-         (CAM).
tions, receipt discrepancies, and
ordering violations.                     7. Ensure the CAM’s record retention requirements expressly state the
                                            National Archives and Records Administration requirements.
U.S. DEPARTMENT OF COMMERCE                                                                                         OFFICE OF INSPECTOR GENERAL


Contents
Introduction .......................................................................................................................................................1
Findings and Recommendations ....................................................................................................................3
   I.         Transaction Documentation Was Incomplete ..............................................................................3
         A.      Evidence of the availability of funds prior to purchase was not included ...........................3
         B.      Evidence of legitimate government need prior to purchase was not included .................4
         C. Proper vendor invoices or payment receipts were not included .........................................5
         D. No evidence of receipt or acceptance was maintained ..........................................................5
         E.      Purchase card files were lost or missing ....................................................................................6
   II.        Procedural Issues Exist .......................................................................................................................7
         A.      Cardholders inappropriately paid state and local sales tax ....................................................7
         B.      Invoices were not paid within 30 days........................................................................................8
         C. Purchases of accountable property were not reported to property custodians or
            documented in transaction files .....................................................................................................9
         D. Purchase card information was faxed ...................................................................................... 10
         E.      Purchases were not distributed equitably among qualified vendors ................................. 11
   III.       Transactions Were Improper or Questionable ........................................................................ 11
         A.      Cardholders split purchases to avoid exceeding limits ........................................................ 11
         B.      Transactions exceeded cardholders’ single-purchase limit ................................................. 12
         C. Cardholders allowed other employees to make purchases with their purchase cards 13
         D. Questionable transactions .......................................................................................................... 13
   IV.         Cardholders and Approving Officials Did Not Obtain Annual Refresher Training .......... 14
   Recommendations ........................................................................................................................................ 15
Summary of Agency Response and OIG Comments ............................................................................. 17
Appendix A: Objective, Scope, and Methodology.................................................................................. 19
Appendix B: Agency Response ................................................................................................................... 21




                                                                                                                    COVER: Detail of fisheries pediment,
                                                                                                           U.S. Department of Commerce headquarters,
                                                                                                                   by sculptor James Earle Fraser, 1934




FINAL REPORT NO. OIG-13-025-A
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL


Introduction
We performed a department-wide review of purchase card transactions to determine if the
Department has adequate transaction-level internal controls. Table 1 contains the
Department’s purchase card activity for fiscal years (FYs) 2009–2011. 1

Table 1. Purchase Card Activity for FYs 2009–2011

                                   FY 2009                FY 2010                 FY 2011
Number of purchase
cards                                    5,181                  4,905                   4,515
Total transactions                     301,791                338,615                 265,423
Total spending                    $146,394,819           $167,776,743            $118,628,549
Source: U.S. General Services Administration SmartPay statistics (https://smartpay.gsa.gov)

There have been three other recent reviews on purchase card activity within the Department:
(1) a 2010 OIG audit of purchase card activity related to the Census Partner Support Program, 2
(2) a 2011 Ernst & Young performance audit of entity-level purchase card controls, 3 and (3) a
2011 audit of the Census Bureau’s purchase card program by external auditors. 4

As part of the decennial census work, OIG reviewed purchase card activity related to the
Partner Support Program. The final report identified internal control deficiencies and
questionable transactions and recommended improvements in several areas, such as
reconciliation and tracking processes, management oversight for the identification of
noncompliance with policies and procedures, and cardholder training.

The Ernst & Young audit performed minimal transaction testing and focused primarily on high-
level controls for the entire purchase card program. The report’s recommendations included
updates to the Commerce Acquisition Manual (CAM) and Charge Card Management Plan and
development of an in-house training program.

The Census Bureau’s review concentrated on internal controls in place during the decennial
census and identified issues such as split transactions, receipt discrepancies, and ordering
violations.

In September 2011, we began this audit on transactions initiated during FY 2011. We selected
approximately 850 transactions for testing through a stratified random sample, ensuring that

1
  Reported activity also includes convenience checks, which are part of the purchase card program and are issued
to authorized cardholders. The checks are written against the cardholder’s purchase card account. They can be
used in instances where a merchant does not accept purchase cards.
2
  U.S. Department of Commerce Office of Inspector General, November 18, 2010. 2010 Census: The Partner
Support Program Lacked Adequate Controls for Monitoring Purchases and Ensuring Compliance, OIG-11-013-A.
Washington, D.C.: Department of Commerce OIG.
3
  Ernst & Young, OMB Circular A-123 Support, Task Order 0002–Internal Control Review for Department-wide
Purchase Card. Confidential.
4
  Erimax, Inc., memorandum for L. Andrecs and C. Munno, February 23, 2011.


FINAL REPORT NO. OIG-13-025-A                                                                                      1
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

transactions from all bureaus were included in the sample and that results could be projected
to the entire Department. We also projected bureau-specific results for the Census Bureau,
National Oceanic and Atmospheric Administration (NOAA), and National Institute of
Standards and Technology (NIST), because those bureaus represented the largest users of
purchase cards. See appendix A for details regarding our audit objective, scope, and
methodology.

Our audit was conducted on a sample of transactions recorded October 1, 2010, through
September 30, 2011. The Department has represented and informed us in discussions that
since this time, it has improved its internal controls related to training and purchase card use.
However, because these corrective actions were implemented after our audit fieldwork, our
report does not address these changes. The Summary of Agency Response and OIG Comments
section of this report describes the corrective actions claimed by the Department.




FINAL REPORT NO. OIG-13-025-A                                                                   2
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
In general, the Department needs to strengthen transaction-level controls over the creation
and maintenance of transaction documentation, ensure that cardholders and approving officials
obtain annual refresher training, and ensure that state and local sales tax is not paid. We also
discovered improper or questionable transactions, as well as procedural issues. Most of the
controls we found that need to be strengthened can be corrected through improved
documentation by cardholders and improved monitoring by approving officials. However,
enhancing cardholders’ and approving officials’ knowledge and understanding of applicable laws
and regulations through improved, recurring training should further correct the deficiencies we
found.

    I.       Transaction Documentation Was Incomplete

         Documentation that is required before a transaction can be made, such as evidence that
         funds are available and that a legitimate government need exists, was missing from
         transaction files. The files were also missing proper vendor receipts and invoices and
         evidence that purchased goods and services had been received and accepted. In addition,
         several cardholders’ files had been lost or destroyed in violation of records retention
         requirements.

         The Department does not have prescribed or standardized forms that must be used by
         cardholders or bureaus, though the CAM describes the types of documentation required
         for all transaction files. While this allowed each bureau and office throughout the
         Department the autonomy to create documentation specific to their circumstances,
         improved guidance should be provided to ensure all cardholders are maintaining all required
         transaction documentation.

         A. Evidence of the availability of funds prior to purchase was not included

         A significant number of transactions did not include documentation that the availability of
         funds had been verified beforehand (see table 2). This occurred primarily because personnel
         were unaware of this requirement or because many cardholders and approving officials
         believed that signatures by the approving official indicated that the availability of funds had
         been verified. However, based on the documentation available, this had never been
         explicitly stated.

         Cardholders should ensure that there is sufficient funding available before making a
         purchase and should document the availability of funds. 5 Purchases could be considered
         unallowable if there is insufficient funding. Furthermore, appropriations may be exceeded if
         purchases are not carefully tracked, resulting in violations of the Antideficiency Act. 6


5
  OMB Circular A-123, appendix B, section 4.8. CAM 1313.301, section 3.1 (Jan. 2010). CAM 1313.301, section
3.11.2 (May 2012).
6
  Antideficiency Act, 31 U.S.C. § 1341.


FINAL REPORT NO. OIG-13-025-A                                                                                 3
      U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

           However, this issue may be largely resolved through improved pretransaction
           documentation.

Table 2. Purchases That Occurred Without Prior Evidence of Funds Availability
               Estimated Percentage of Transactions
                           with Errors                                 Estimated Value of Transactions with Errors
             Commerce      Census      NIST     NOAA                Commerce      Census        NIST          NOAA
Estimated
errors                80.23         98.01        69.60     84.93         $95,179,192 $7,253,217 $20,937,120        $52,419,829
Note: The Commerce column contains the estimated results for all bureaus within the Department, including Census, NIST, and
NOAA. The range of estimated transactions with errors is based on a 95 percent confidence level and a margin of error of 3.55
percent ($4,207,996) for Commerce, 1.91 percent ($141,671) for Census, 6.27 percent ($1,887,514) for NIST, and 4.76 percent
($2,939,577) for NOAA. Therefore, while we have estimated an expected error rate for all transactions, we are 95 percent
confident that the true error rate falls within the margin of error from the estimate.

           B. Evidence of legitimate government need prior to purchase was not included

               For a significant number of transactions, there was no documentation that a legitimate
               government need existed before the transaction took place (see table 3). This
               documentation can be a request from agency personnel to a cardholder, notes from the
               cardholder regarding the requestor’s information and order content, or approval from
               an approving official. 7

               The primary reasons that no documentation existed were that approving officials were
               not requiring that it be included with cardholder files and a number of approving officials
               had provided blanket preapprovals to their cardholders to make any purchases under a
               specific dollar value throughout the year in lieu of documenting the need for each
               purchase. Although this may appear to increase the efficiency of the transaction process,
               we believe it is contrary to the review and oversight process envisioned by the CAM
               and OMB Circular A-123, appendix B.

Table 3. Purchases That Occurred Without Prior Evidence of Legitimate Need
                Estimated Percentage of Transactions
                            with Errors                                Estimated Value of Transactions with Errors
              Commerce Census         NIST      NOAA                 Commerce     Census         NIST        NOAA
 Estimated
 errors              47.02        50.30          7.77       62.25         $55,785,310 $3,722,661 $2,336,317 $38,420,401
 Note: The Commerce column contains the estimated results for all bureaus within the Department, including Census, NIST, and
 NOAA. The range of estimated transactions with errors is based on a 95 percent confidence level and a margin of error of 4.34
 percent ($5,149,889) for Commerce, 6.76 percent ($500,318) for Census, 3.62 percent ($1,087,621) for NIST, and 6.45
 percent ($3,980,284) for NOAA. Therefore, while we have estimated an expected error rate for all transactions, we are 95
 percent confident that the true error rate falls within the margin of error from the estimate.




       7
        OMB Circular A-123, appendix B, section 4.8. CAM 1313.301, sections 3.12.2 and 3.14.2 (Jan. 2010). CAM
       1313.301, sections 3.11.2 and 3.13.2 (May 2012).


       FINAL REPORT NO. OIG-13-025-A                                                                                  4
     U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

            C. Proper vendor invoices or payment receipts were not included

               Many transactions were not supported by a proper vendor invoice or payment receipt,
               as required by the Department (see table 4). 8 This occurred because monitoring
               controls over monthly credit card reconciliations are weak. Cardholders should
               maintain a file for each purchase card transaction, which includes a copy of an online
               transaction, cash register receipt, itemized receipt, or faxed verification of order. 9
               Although cardholders were, in some instances, able to identify alternative sources of
               documentation to support transactions, this resulted in some transactions being judged
               to be questionable (see subfinding III.D).

               During the review of the monthly reconciliation of cardholders’ accounts, approving
               officials are required to ensure that all transactions were necessary government
               purchases and complied with all applicable laws, regulations, and policies and guidance. 10
               Without proper vendor invoices and receipts, approving officials are not able to
               adequately determine what was purchased, review a breakdown of costs, or determine
               whether all applicable requirements were met.

Table 4. Transactions That Were Not Supported by a Vendor Invoice or Receipt
               Estimated Percentage of Transactions
                            with Errors                     Estimated Value of Transactions with Errors
            Commerce Census           NIST     NOAA       Commerce       Census      NIST        NOAA
Estimated
errors                 8.52           28.07      3.31        7.09        $10,104,158      $2,077,416     $994,473         $4,376,541
Note: The Commerce column contains the estimated results for all bureaus within the Department, including Census, NIST, and
NOAA. The range of estimated transactions with errors is based on a 95 percent confidence level and a margin of error of 2.62
percent ($3,110,286) for Commerce, 6.09 percent ($450,983) for Census, 2.35 percent ($706,128) for NIST, and 3.41 percent
($2,105,584) for NOAA. Therefore, while we have estimated an expected error rate for all transactions, we are 95 percent
confident that the true error rate falls within the margin of error from the estimate.

            D. No evidence of receipt or acceptance was maintained

               We found transactions that did not have evidence of receipt or acceptance for the
               purchased good(s) or service(s) (see table 5). Similar to the maintenance of proper
               vendor support, this occurred because monitoring controls over monthly credit card
               reconciliations are weak. Cardholders should maintain delivery receipts and immediately
               inspect supplies to ensure that orders are complete and items are in acceptable



      8
        CAM 1313.301, section 3.12.2 (Jan. 2010) and section 3.11.2 (May 2012), requires a “copy of online transaction,
      cash register receipt, itemized receipt, or faxed verification of order” to be included in transaction file
      documentation. “Merchants are required to provide a transaction record (receipt) that details the items
      purchased, the dollar amount of each item and the total amount of the transaction for each charge placed on the
      card. Phone, fax and Internet orders should provide the receipt with the order shipment.” J.P.Morgan, Cardholder
      User Guide.
      9
        CAM 1313.301, section 3.12.2 (Jan. 2010). CAM 1313.301, section 3.11.2 (May 2012).
      10
         CAM 1313.301, section 3.14.2 (Jan. 2010). CAM 1313.301, section 3.13.2 (May 2012).


      FINAL REPORT NO. OIG-13-025-A                                                                                       5
     U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

              condition. 11 If delivery or receipt cannot be confirmed, there is no proof the item or
              service was received, increasing the potential risk that it was not received or was an
              improper purchase.

  Table 5. Purchases That Occurred Without Documented Evidence of Receipt or Acceptance
               Estimated Percentage of Transactions
                           with Errors                                  Estimated Value of Transactions with Errors
             Commerce Census         NIST      NOAA                  Commerce      Census         NIST         NOAA
Estimated
errors               27.64       33.91         13.92       35.68         $32,791,830   $2,509,264 $4,187,116 $22,020,973
Note: The Commerce column contains the estimated results for all bureaus within the Department, including Census, NIST, and
NOAA. The range of estimated transactions with errors is based on a 95 percent confidence level and a margin of error of 4.17
percent ($4,951,900) for Commerce, 6.42 percent ($475,403) for Census, 4.75 percent ($1,430,141) for NIST, and 6.38 percent
($3,937,663) for NOAA. Therefore, while we have estimated an expected error rate for all transactions, we are 95 percent
confident that the true error rate falls within the margin of error from the estimate.

           E. Purchase card files were lost or missing

              All original supporting documents were missing for seven transactions tested from
              seven different cardholders. However, two of the cardholders (from NOAA) were able
              to reproduce documentation for their respective transactions during the audit. Due to
              the lack of documentation, we could not complete testing for the remaining transactions
              and considered the transactions noncompliant for most testing attributes. As we did not
              attempt to identify missing documentation for all cardholders, we cannot make
              estimates for the total missing documentation throughout the Department. Three of the
              cardholders (two from NOAA and one from NIST) were missing a combined 6 months’
              worth of purchase card documentation, representing transactions totaling
              approximately $7,881. NOAA agency officials could not find another cardholder’s files
              for FY 2011 after the cardholder’s employment ended, although the agency was working
              to reconstruct the file. The cardholder had made 55 transactions, totaling approximately
              $17,164 during FY 2011. Another cardholder’s records had been destroyed, according
              to bureau officials, after the cardholder’s employment with the Census Bureau ended.
              This cardholder had made 17 transactions, totaling approximately $4,130, during FY
              2011.

              The National Archives and Records Administration’s (NARA) General Records
              Schedule requires documentation for all transactions at or below the simplified
              acquisition threshold to be maintained for 3 years after final payment and
              documentation for all transactions exceeding the simplified acquisition threshold to be
              maintained for 6 years and 3 months after final payment. 12 Although the CAM requires
              approving officials to retain cardholder files for 3 years after final payment and
              cardholders to adhere to all applicable requirements for purchases above the micro-
              purchase limit, the CAM does not specifically mention the possibility that some records

      11
         Where possible, purchased supplies and services should be received and accepted by someone independent of
      the purchase. CAM 1313.301, section 3.10 (Jan. 2010). CAM 1313.301, section 3.9 (May 2012).
      12
         National Archives and Records Administration, April 2010. General Records Schedule 3: Procurement, Supply, and
      Grant Records, 3.a.(1). http://www.archives.gov/records-mgmt/grs/grs03.html.


      FINAL REPORT NO. OIG-13-025-A                                                                                   6
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

              may need to be retained for more than 3 years. The CAM should expressly state the
              NARA requirement for records retention. 13

     II.      Procedural Issues Exist

           Cardholders inappropriately paid state and local sales tax, did not pay invoices within 30
           days, and faxed purchase card information. In other instances, purchases of accountable
           property were not referred to an accountable property custodian, and purchases were not
           distributed equitably among qualified vendors.

           A. Cardholders inappropriately paid state and local sales tax

              In FY 2011, Commerce bureaus paid an estimated $292,619 in state or local sales taxes,
              which were not refunded by vendors (see table 6). Some cardholders recovered taxes;
              however, others either were not aware that they had paid taxes or did not attempt to
              recover taxes even though they were aware of the rule.

              The federal government is not required to pay state or local sales taxes. 14 Cardholders
              are allowed to pay the taxes if they are subsequently refunded by the vendor. All
              instances of paid sales tax should have been identified and corrected either by the
              cardholder or the approving official during the review and reconciliation process.

              The Department previously identified this as an issue and released a memorandum in
              January 2011, reminding all purchase card program participants of the federal
              government’s sales tax exemption. 15 However, a majority of the transactions where
              sales tax had been paid occurred after the memorandum’s release.

              In addition, although the Department obtains transaction data from J.P.Morgan’s
              PaymentNet system, we found the data to be inconsistent with the supporting
              documentation that we reviewed regarding paid sales tax. Most transactions were
              correctly shown in PaymentNet as not paying sales tax, although our review of the
              documentation showed that sales tax had been paid in some cases. Conversely,
              PaymentNet identified some transactions as including sales tax, although our review
              showed that they did not include sales tax. We were therefore unable to rely on these
              data in our audit. Instead, we based our estimate on the results of audit testing,
              extrapolated to the untested population of transactions. If the Department is also not
              able to rely on these data, increased reliance is placed on the review by approving
              officials to identify sales tax that has been inappropriately paid.




13
   CAM 1313.301, section 3.14.2 (Jan. 2010). CAM 1313.301, section 3.13.2 (May 2012). CAM 1313.301, section 3.2
(Jan. 2010 and May 2012).
14
   OMB Circular A-123, appendix B, section 11.1.
15
   U.S. Department of Commerce, Assistant Secretary for Administration, memorandum to Purchase, Travel, and
Fleet Charge Card Program participants, Sales Tax Exemption, January 14, 2011.


FINAL REPORT NO. OIG-13-025-A                                                                                 7
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

                   Table 6. Estimated Sales Tax That Was Inappropriately Paid

                                         Commerce         Census        NIST         NOAA
                     Estimated
                     sales tax paid         $292,619        $5,515     $50,789       $208,872
                     Note: The Commerce column contains the estimated results for all bureaus
                     within the Department, including Census, NIST and NOAA. Estimates were
                     based on sales taxes identified as paid in the transaction documentation.
                     The range of estimated sales taxes paid is based on a 95 percent confidence
                     level and a margin of error of $5,990 for Commerce, $58 for Census,
                     $1,336 for NIST, and $4,996 for NOAA. Therefore, while we have
                     calculated an estimated amount of sales taxes paid, we are 95 percent
                     confident that the actual sales taxes paid falls within the margin of error
                     from the estimate.

     B. Invoices were not paid within 30 days

         Some invoices for purchase card transactions were not paid within the required 30-day
         payment period (see table 7). In addition, almost 60 percent of the late payments were
         made more than 60 days after the invoice date, and several were paid more than 1 year
         after the invoice date. Delayed payments could have been caused by vendors (late
         invoicing) or bureaus (late payment processing). However, management could not
         distinguish between these two causes because cardholders were not regularly
         documenting the date when invoices were received. This documentation could be used
         as support to extend the 30-day payment period, if delayed by vendors, and save
         taxpayers’ money. Payments were also late because cardholders were unaware that
         payment was required within 30 days.

         The Prompt Payment Act requires purchase card payments to be made within 30 days
         after a proper invoice has been received for the amount due. 16 Whenever an agency fails
         to annotate the invoice with the date of receipt, an invoice is considered to be received
         on the date of the invoice. 17 If payments are not made within 30 days, the Department is
         liable for interest on the unpaid balance. Interest will accrue on an unpaid balance
         starting the day after the due date through the payment date and shall be paid without
         regard to whether the vendor has requested payment for the penalty. A notice should
         accompany the payment, stating the amount of interest penalty, number of days late, and
         the rate used to calculate interest owed. 18




16
   5 CFR § 1315.4(g)(iv).
17
   5 CFR § 1315.4(b)(2).
18
   5 CFR § 1315.10.


FINAL REPORT NO. OIG-13-025-A                                                                              8
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

Table 7. Transactions Not Paid Within 30 Days
                 Estimated Percentage of Transactions
                             with Errors                            Estimated Value of Transactions with Errorsa
                Commerce Census        NIST NOAA                   Commerce     Census       NIST        NOAA

Estimated
errors                  4.49         3.25    2.66       3.50        $5,322,766     $240,243      $799,208     $2,163,071
Note: The Commerce column contains the estimated results for all bureaus within the Department, including Census,
NIST, and NOAA. The range of estimated transactions with errors is based on a 95 percent confidence level and a
margin of error of 2.00 percent ($2,375,529) for Commerce, 2.37 percent ($175,153) for Census, 2.16 percent
($648,680) for NIST, and 2.38 percent ($1,468,223) for NOAA. Therefore, while we have estimated an expected error
rate for all transactions, we are 95 percent confident that the true error rate falls within the margin of error from the
estimate.
a
  Values do not include interest or penalties.

        C. Purchases of accountable property were not reported to property custodians or documented in
           transaction files

            In six transactions tested, the purchase of accountable property was not reported to the
            property custodian (see table 8). In eight transactions tested, purchased accountable
            property was reported to the property custodian, but documentation was not
            maintained with the transaction files, as required.

            Accountable personal property totaling $5,000 or items considered sensitive, regardless
            of cost, should be reported to a property custodian for tracking. 19 If accountable
            property is not submitted to the property officer for inventory purposes, there is an
            increased risk for inaccurate property inventory listings and possible theft. During the
            monthly account reconciliation, approving officials are required to ensure that
            cardholders have completed and submitted the proper accountable property
            documentation to the accountable property office. When documentation has not been
            maintained in the transaction file, approving officials cannot ensure the property office
            has been informed, as required.




 19
      CAM 1313.301, section 3.11 (Jan. 2010). CAM 1313.301, section 3.10 (May 2012).


 FINAL REPORT NO. OIG-13-025-A                                                                                      9
    U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

   Table 8. Reporting of Accountable Property Purchases
                          Number of Transactions                           Value of Transactions (Rounded)
                    Commerce NIST NOAA OSEC                             Commerce     NIST      NOAA      OSEC
Total purchases
of accountable
property                    22       9       12       1                      $34,640      $12,390      $16,731       $5,519
Property
purchased and
not reported to
accountable
property
custodian                    6       1        4       1                         9,133          331        3,284       5,519
Property
purchases
reported, but
no transaction
file docu-
mentation                    8       4        4       0                       11,832         4,820        7,012               0
Note: The Commerce column contains the total results for all bureaus within the Department, including NIST, NOAA, and
OSEC. Due to the small number of transactions in the sample that included the purchase of accountable property, we were
not able to extrapolate the results of testing to the entire population without an unreasonably high margin of error, which
would make the results statistically unreliable. Therefore, we are only reporting actual results of testing.

          D. Purchase card information was faxed

              Nineteen cardholders faxed their purchase card account number information, which is
              specifically prohibited, for 21 separate transactions (see table 9). 20 Transmitting such
              sensitive information in this manner leads to an increased risk of fraud, waste, or abuse
              due to associated security issues. We observed, however, that the Department’s
              Electronic Transmission of Personally Identifiable Information (PII) Policy allows
              purchase card information to be faxed in some circumstances. 21 This policy should be
              updated to be consistent with the CAM.




     20
       CAM 1313.301, section 2.9 (Jan. 2010 and May 2012).
     21
       U.S. Department of Commerce, Office of the Chief Information Officer, Electronic Transmission of Personally
     Identifiable Information Policy, July 30, 2009.


     FINAL REPORT NO. OIG-13-025-A                                                                                    10
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

                        Table 9. Faxed Purchase Card Information
                                           Number of            Number of
                            Bureau         Cardholders         Transactions
                         Census                  7                  9
                         ITA                     1                   1
                         NIST                   11                 11
                          Total                 19                 21
                          Note: Compliance with this requirement was not part of our
                          standard testing for all transactions. Therefore, we were not able
                          to project an estimated error rate to the untested population of
                          transactions.

        E. Purchases were not distributed equitably among qualified vendors

           Several NIST cardholders primarily used a single vendor for moving and related services
           instead of distributing purchases equally among qualified suppliers. The cardholders
           made 434 payments, totaling $315,379, to one vendor during FY 2011. NIST officials had
           identified two competitors for the vendor but made only 71 payments, totaling $16,921,
           to one competitor and no payments to the other during FY 2011. Cardholders are
           required to distribute purchases equitably among qualified suppliers. 22 Furthermore, the
           excessive use of one vendor, and lack of consideration for alternative methods of
           procurement or insourcing, denied NIST the benefits of competition for these services.
           The cardholders explained that the vendor was selected based on the bureau’s past
           experience with the vendor.

           Additionally, according to one NIST employee, the decision to outsource the services
           was based on an OMB Circular A-76 study performed by NIST in 1989. NIST should
           determine whether the continued outsourcing of these services to a vendor without a
           contract is still the most efficient and effective method of obtaining the services
           required.

 III.      Transactions Were Improper or Questionable

        We identified transactions that were split, transactions that exceeded cardholders’ single-
        purchase limit, purchases made by employees other than the cardholder, and a few
        questionable transactions.

        A. Cardholders split purchases to avoid exceeding limits

           Some transactions for goods and services were split into multiple orders without
           justification. When we questioned the cardholders and approving officials, they could
           not give adequate reasons for the multiple orders. We believe that, at least in some
           instances, this was done to avoid exceeding authorized limits on individual purchase card
           transactions (see table 10). Cardholders are not permitted to split a purchase into
           multiple purchases to avoid exceeding their single-purchase limit, the micro-purchase
22
     CAM 1313.301, section 3.1 (Jan. 2010 and May 2012).


FINAL REPORT NO. OIG-13-025-A                                                                              11
   U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

            threshold, or any other purchase card limit. 23 Because the noted error rate was not
            significant, we found controls in this area to be generally effective and make no
            recommendation. 24

Table 10. Split Purchases
              Estimated Percentage of Transactions with                   Estimated Value of Transactions
                               Errors                                               with Errors
              Commerce Census          NIST     NOAA                  Commerce Census        NIST       NOAA
 Estimated
 errors              0.74      0.38      0.21      1.10                   $883,472      $27,811      $62,443       $681,297
Notes: The Commerce column contains the estimated results for all bureaus within the Department, including Census, NIST and
NOAA. The range of estimated transactions with errors is based on a 95 percent confidence level and a margin of error of 0.79
percent ($939,783) for Commerce, 0.39 percent ($29,017) for Census, 0.17 percent ($50,361) for NIST, and 1.29 percent
($795,336) for NOAA. Therefore, while we have estimated an expected error rate for all transactions, we are 95 percent
confident that the true error rate falls within the margin of error from the estimate.

         B. Transactions exceeded cardholders’ single-purchase limit

            We found transactions that were above cardholders’ single-purchase limit when the
            cardholders did not meet the special provisions required to increase their limit (see
            table 11). This occurred because agency program coordinators temporarily gave the
            cardholders increases in their single-purchase limits and then lowered the limits after
            the purchase was made. These purchases should have been made by a cardholder with a
            higher authorized single-purchase limit or through a different purchasing method.

            The single-purchase limit for cardholders who are not in an acquisition position is
            generally the micro-purchase threshold ($3,000) unless the cardholder has met certain
            requirements. 25 In addition to the training an individual must complete to become a
            cardholder, cardholders requesting a single-purchase limit above the micro-purchase
            threshold must also complete the Federal Acquisition Certification in Contracting
            training and document completion in various areas of education, experience, and
            training. 26

            Purchase cards may be used to make micro-purchases, place a task or delivery order, or
            make payments on other contractual instruments when agreed on by the contractor. 27
            For purchases that exceed the micro-purchase limit or are outside these categories,
            cardholders should consider other methods of procurement such as purchase orders or
            blanket purchase agreements. 28



    23
       CAM 1313.301, section 3.1 (Jan. 2010 and May 2012).
    24
       Assessment of significance is based on auditor judgment in relation to the tested control.
    25
       Federal Acquisition Regulation (FAR) subpart 13.201(b) and CAM 1313.301, section 2.1.1 (Jan. 2010 and May
    2012).
    26
       CAM 1313.301, section 2.1.1.2 (Jan. 2010 and May 2012).
    27
       FAR subpart 13.301(c).
    28
       See FAR subpart 13.302-307.


    FINAL REPORT NO. OIG-13-025-A                                                                                  12
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

           Existing controls prevent purchase card transactions that exceed a cardholder’s single-
           purchase limit from going through. Only through direct intervention of these controls
           can such transactions even be executed. Because the noted error rate was not
           significant, we found controls in this area to be generally effective and make no
           recommendation. 29

     Table 11 Purchases Exceeding Cardholder Single-Purchase Limits
                    Estimated Percentage of Transactions                 Estimated Value of Transactions
                                with Errors                                        with Errors
                    Commerce Census NIST NOAA                         Commerce      Census     NIST NOAA
     Estimated
     errors                  0.04      0.00     0.00       0.00            $46,669             $0      $0         $0
     Note: The Commerce column contains the estimated results for all bureaus within the Department, including
     Census, NIST, and NOAA. The range of estimated transactions with errors is based on a 95 percent confidence
     level and a margin of error of 0.03 percent ($33,501) for Commerce, 0.00 percent ($0) for Census, 0.00 percent
     ($0) for NIST, and 0.00 percent ($0) for NOAA. Therefore, while we have estimated an expected error rate for
     all transactions, we are 95 percent confident that the true error rate falls within the margin of error from the
     estimate.

       C. Cardholders allowed other employees to make purchases with their purchase cards

           We found four separate transactions with evidence that cardholders had allowed other
           employees to make purchases using their purchase card: two at NOAA, one at Census,
           and one at NIST. Only assigned cardholders are allowed to make purchases with their
           purchase cards. 30 Although cardholders are required to certify that they have read and
           understand the policies and procedures outlined in the CAM, which prohibits sharing
           purchase cards with others, the cardholders stated they were not aware of this
           restriction. For the four cardholders’ remaining transactions, we were not able to
           determine which transactions were made by the cardholders or by other individuals,
           and therefore how pervasive the problem was, without reviewing all transactions by
           each of the cardholders. As this issue was not included in our standard testing for each
           transaction, we were unable to project these issues to the untested population of
           transactions. Nonetheless, the Department should review transactions associated with
           these cards further to confirm the integrity of related purchases.

       D. Questionable transactions

           We found transactions we considered to be questionable (see table 12). Most of these
           transactions occurred because adequate documentation was not maintained to support
           the allowability of the purchase. We also found transactions for unallowable goods or
           services, such as the purchase of bottled water, 31 and transactions that were improperly
           executed with a purchase card or convenience check. 32 This occurred primarily because
29
   Assessment of significance is based on auditor judgment in relation to the tested control.
30
   CAM 1313.301, sections 2.9 and 3.1 (Jan. 2010 and May 2012).
31
   CAM 1313.301, section 3.8.3 (Jan. 2010), and CAM 1313.301, section 3.7.3 (May 2012), state that bottled water
is considered a personal expense.
32
   CAM 1313.301, section 4.2 (Jan. 2010 and May 2012), states that convenience checks shall not be used for an
honorarium fee to a non-U.S. citizen not authorized to receive the payment in accordance with the terms and


FINAL REPORT NO. OIG-13-025-A                                                                                      13
     U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

              adequate documentation was not maintained to support the allowability of purchases
              and purchases were not sufficiently monitored. Cardholders should ensure that
              purchases are for an allowable purpose. 33 Transactions were also considered to be
              questionable if there was not sufficient documentation available to support their
              allowability (see subfindings I.C and I.E). Because the noted error rate was not
              significant, we found controls in this area to be generally effective and make no
              recommendation. 34

Table 12. Questionable Purchase Card Transactions
             Estimated Percentage of Transactions                        Estimated Value of Transactions with Errors
                          with Errors
            Commerce Census NIST NOAA                                Commerce          Census           NIST             NOAA
Estimated
errors             2.78      1.48 0.99         3.30                  $3,302,808        $109,714        $298,188      $2,039,872
Note: The Commerce column contains the estimated results for all bureaus within the Department, including Census, NIST, and
NOAA. The range of estimated transactions with errors is based on a 95 percent confidence level and a margin of error of 1.73
percent ($2,046,790) for Commerce, 1.65 percent ($122,383) for Census, 1.36 percent ($410,355) for NIST, and 2.38 percent
($1,467,278) for NOAA. Therefore, while we have estimated an expected error rate for all transactions, we are 95 percent
confident that the true error rate falls within the margin of error from the estimate.

       IV.    Cardholders and Approving Officials Did Not Obtain Annual Refresher
              Training

          For each transaction tested, we reviewed whether the cardholder and their approving
          official had received refresher training during FY 2011. A significant number of cardholders
          and/or approving officials did not meet the annual training requirements. 35 Lack of training
          can lead to misuse of the purchase card and failure to comply with requirements of the
          purchase card program. Furthermore, failure to complete required refresher training should
          have led to suspension of cardholder and approving official purchase card accounts until
          training was successfully completed, although we did not observe this. 36 The Department
          did not have sufficient internal controls to monitor or identify whether cardholders and
          approving officials were obtaining refresher training as required.

          During the course of this audit, the Department made some progress in ensuring that
          cardholders and approving officials obtain required training. The Department released an
          updated CAM in May 2012, which requires that all cardholders and approving officials obtain
          6 hours of purchase card training each fiscal year no later than July 30. The Department has
          also worked with an external vendor to develop a more comprehensive purchase card
          training class. However, we found that many cardholders and approving officials were not



      conditions of their visa. We found that NIST paid an honorarium to a non-U.S. citizen without verifying that the
      payment was authorized by their visa.
      33
         CAM 1313.301, sections 3.1 and 3.8 (Jan. 2010). CAM 1313.301, sections 3.1 and 3.7 (May 2012).
      34
         Assessment of significance is based on auditor judgment in relation to the tested control.
      35
         CAM 1313.301, section 2.1.3 (Jan. 2010 and May 2012).
      36
         CAM 1313.301, section 2.1.3 (Jan. 2010 and May 2012).


      FINAL REPORT NO. OIG-13-025-A                                                                                      14
     U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

          aware of the new requirements or the requirements from the previous CAM, released in
          January 2010.

Table 13. Transactions by Personnel Who Did Not Meet Training Requirements During FY 2011
                Estimated Percentage of Transactions by            Estimated Value of Transactions by Personnel Who Did Not
                 Personnel Who Did Not Meet Training                              Meet Training Requirements
                            Requirements
               Commerce      Census      NIST     NOAA                Commerce         Census         NIST            NOAA
Estimated
cardholders           39.65         24.61      13.85     51.21        $47,031,581     $1,821,532 $4,166,138           $31,606,088
Estimated
approving
officials             40.29         57.58        9.00    48.20        $47,797,044     $4,261,435 $2,707,669           $29,748,942
Note: The Commerce column contains the estimated results for all bureaus within the Department, including Census, NIST, and
NOAA. The range of estimated transactions made by cardholders who did not obtain training is based on a 95 percent
confidence level and a margin of error of 4.55 percent ($5,393,692) for Commerce, 5.75 percent ($425,269) for Census, 4.73
percent ($1,423,531) for NIST, and 6.63 percent ($4,094,898) for NOAA. The range of estimated transactions approved by
approving officials who did not obtain training is based on a 95 percent confidence level and a margin of error of 4.55 percent
($5,399,508) for Commerce, 6.59 percent ($488,017) for Census, 3.91 percent ($1,174,781) for NIST, and 6.62 percent
($4,083,579) for NOAA. Therefore, while we have estimated an expected error rate for all transactions, we are 95 percent
confident that the true error rate falls within the margin of error from the estimate.

      Recommendations

          We make the following recommendations to the Chief Financial Officer and Assistant
          Secretary for Administration:

               1. Direct cardholders to document purchase requests and approvals, budget approvals,
                  and bona fide government needs for all purchase card transactions.

               2. Strengthen the monthly purchase card reconciliation process by requiring approving
                  officials to ensure all transactions have proper receipt or invoice support, evidence
                  of receipt and acceptance for goods and services received, and evidence that
                  accountable property purchases were forwarded to property custodians, when
                  applicable. The reconciliation should also identify and initiate corrective action when
                  sales taxes have been paid or invoices have not been paid within the 30-day payment
                  period.

               3. Ensure that purchases are equitably distributed among all qualified vendors and that
                  agencies determine the most efficient and effective method of obtaining services (i.e.
                  insourcing versus outsourcing, purchase cards versus other procurement tool).

               4. Develop policies and procedures to ensure that purchase card files are retained
                  when cardholders and/or approving officials end employment with the Department
                  or otherwise discontinue their functions as cardholders and approving officials.

               5. Improve training for cardholders and approving officials to ensure that all purchase
                  card program participants have an adequate understanding of all applicable laws and




      FINAL REPORT NO. OIG-13-025-A                                                                                     15
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

             regulations over the use of purchase cards, including the proper security of purchase
             cards.

        6. Improve the tracking and monitoring of training to ensure that all cardholders and
           approving officials receive the required annual refresher training and that accounts
           are suspended when they do not.

        7. Ensure the Department’s Electronic Transmission of PII Policy is consistent with the
           CAM regarding the faxing of purchase card information.

        8. Ensure the CAM’s record retention requirements expressly state the NARA
           requirements.




FINAL REPORT NO. OIG-13-025-A                                                                     16
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
On April 17, 2013, OIG received the Department’s comments on the draft report, which we
include as appendix B of this report. We consider the Department’s reply to be nonresponsive
because it did not state concurrence or nonconcurrence with the recommendations. According
to Department Administrative Order 213-3, when responding to an audit, Department officials
must state concurrence or reasons for nonconcurrence with the recommendations. 37

The Department stated that it has already implemented a series of corrective actions based on
other reviews of its purchase card program. The Department represented that it has improved
tracking of cardholders and approving officials who have not obtained refresher training and will
suspend accounts that fail to complete refresher training. The Department stated it has also
developed and implemented enhanced in-class training and is completing development of an
enhanced online training class, which cardholders, approving officials, and agency program
coordinators will be required to complete each fiscal year, before July 30. As these corrective
actions occurred subsequent to completion of our fieldwork, they are not covered in our audit.

The Department explained that it has also improved oversight and enforcement to ensure
accounts and transactions are reconciled timely. While making those improvements is
commendable, this audit did not take issue with reconciliations not being performed. Our audit
determined that the quality of the review of account reconciliations and supporting
documentation by approving officials was not adequate. Many of the findings in this audit,
including incomplete documentation, procedural issues, and questionable or improper
transactions, could have been discovered and corrected during a proper review of transaction
files by approving officials.

The Department stated it will ensure that its PII policy is consistent with the CAM but
disagreed with our assessment that the CAM’s guidance for records retention was not
consistent with NARA guidance. The Department believes that a blanket statement within the
CAM requiring that cardholders with authority to use the purchase card above the micro-
purchase threshold comply with all requirements of federal and departmental acquisition laws,
regulations, policies, and guidance is sufficient. As indicated in the report, the CAM lists
approving officials as being responsible for ensuring that cardholder files are retained for 3 years
from final payment, without distinguishing between transactions above or below any threshold.
We believe the guidance within the CAM should expressly state the NARA guidance, as noted
in our recommendation.

The Census Bureau also provided feedback regarding specific transactions included in our
findings. We reviewed the transactions and updated our findings as appropriate.



37
  Department Administrative Order 213-3, section 5.06(b)(1); see also Department Administrative Order 213-5,
section 5.01(d)(2)–(3).


FINAL REPORT NO. OIG-13-025-A                                                                                  17
U.S. DEPARTMENT OF COMMERCE                                      OFFICE OF INSPECTOR GENERAL

We look forward to receiving the Department’s action plan, addressing our report
recommendations.




FINAL REPORT NO. OIG-13-025-A                                                            18
U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Appendix A: Objective, Scope, and
Methodology
The objective of this review was to determine if the Department has adequate transaction-level
internal controls over purchase card transactions. The audit scope included all transactions
from all bureaus, except for the Office of Inspector General, occurring during FY 2011
(October 1, 2010, through September 30, 2011). We conducted fieldwork from March 2012
through September 2012 at various bureau locations throughout the country.

To accomplish our audit objective, we did the following:

    •   Obtained data from J.P.Morgan’s PaymentNet system for all purchase card transactions
        created from October 1, 2010, through September 30, 2011. We analyzed the data for
        evidence of potential risk factors using SAS and classified transactions as potentially
        higher or lower risk based on the results.

    •   Developed a random statistical sample by stratifying transactions by bureau and by
        potentially higher or lower risk transactions. Transactions were selected for testing in
        each strata based on random number generation and availability of staff within various
        locations.

    •   Reviewed previous reports of audits and reviews of the Department’s purchase card
        program and applicable criteria, including Federal Acquisition Regulation subpart 13,
        Commerce Acquisition Manual 1313.301, and OMB Circular A-123, appendix B, and
        Executive Order 12931 (Federal Procurement Reforms).

    •   Reviewed documentation supporting purchase card transactions and followed up on
        issues identified. Issues found in the tested transactions were projected to the universe
        of untested transactions.

We reviewed internal controls significant within the context of the audit objective by
interviewing Department officials, examining policies and procedures, reviewing written
assertions of Department officials, and reviewing transaction documentation for evidence of
internal controls. We found that the Department needs to improve several aspects of its
internal controls. These issues are discussed in the findings of this report.

To assess the reliability of computer-processed data obtained from J.P.Morgan’s PaymentNet
system, we (1) looked for obvious errors in accuracy and completeness, (2) interviewed
Commerce and J.P.Morgan officials who were knowledgeable about the data, and (3) directly
tested against supporting documentation. We determined that the data were sufficiently reliable
for the purpose of this report. While we found J.P.Morgan’s sales tax transaction data to be
unreliable, we did not rely upon the data for the findings or conclusions in this report.

The review was conducted under the authority of the Inspector General Act of 1978, as
amended, and the Department Organization Order 10-13, dated August 31, 2006. We


FINAL REPORT NO. OIG-13-025-A                                                                      19
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions.




FINAL REPORT NO. OIG-13-025-A                                                                    20
U.S. DEPARTMENT OF COMMERCE                                                           OFFICE OF INSPECTOR GENERAL


Appendix B: Agency Response
                                                       UN liED STATES DEPARTMENT OF COMMERCE
                                                       Chief Fi nancial Officer and
                                                        Assistant Secretary tor- Administration
                                                       Washington, D.C. 20230


           APR 17 2013



     MEMORANDUM FOR:            Andrew Katsaros
                                Assistant Inspector General for Audit

     FROM:                      Barry E. Berkowitz                  ~n -~-I                       .L
                                Senior Procurement Executive      ~                   ~ P...
                                 and Director for Acquisition Management

     SUBJECT:                   Response to Internal Controls for Purchase Card
                                Transactions Need to Be Strengthened Draft Report



     The Office of Acquisition Management appreciates the opportunity to comment on the
     Office of Inspector General's (OIG) draft report on the Department of Commerce's
     (DOC) controls over purchase card transactions. The draft repo rt provides preliminary
     conclusions and suggested recommendations for strengthening internal controls for the
     purchase card program based on FY11 data. The draft report was not particularly
     helpful since many of the findings included within the report were previously identified
     during the Department's Fiscal Year 2010 A-123 Internal Controls Review and OAM has
     implemented corrective actions to address those fi ndings and other corrective actions
     are currently underway. As the impact of those tightened controls was not assessed, we
     feel that the report may not be relevant.



     Recommendations:
     The Department has developed and implemented various corrective actions to enhance
     its purchase card program . The recom mendations presented by the OIG, in summary,
     req uest the Department to provide enhanced training and guidance to cardho lders;
     strengt hening monthly reconciliation processes; and improve tracking of training.

     1. Provide direction to cardholders and approving officials to document pre.
        purchase approvals; ensure purchases are equitably distributed among all
        qualified vendors; Develop policies and procedures to enhance training :
        improve tracking of refresher training requirement
        The Department updated its purchase card policy, Commerce Acquisition Manual
        1313.301 · Revised May 2012, which was issued to all cardholders, approving




FINAL REPORT NO. OIG-13-025-A                                                                                 21
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-13-025-A                           22
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




11200000130




FINAL REPORT NO. OIG-13-025-A                           23
